imp   Office of Audits
      Office of Inspector General
      U.S. General Services Administration




      IMPLEMENTATION REVIEW OF CORRECTIVE ACTION PLAN

      Audit of PBS’s Controls Over
      Security of Building Information
      Report Number A070216/P/R/R08005
      Dated September 30, 2008
      Assignment Number A120079
      May 3, 2012
               Office of Audits
               Office of Inspector General
               U.S. General Services Administration


 DATE:            May 3, 2012

 TO:              Linda Chero
                  Acting Commissioner, Public Buildings Service (P)
 FROM:            Susan P. Hall signed by Susan P. Hall
                  Audit Manager, Real Property Audit Office (JA-R)
 SUBJECT:         Implementation Review of Corrective Action Plan
                  Audit Of PBS’s Controls Over Security of Building Information
                  Report Number A070216/P/R/R08005, Dated September 30, 2008

                  Assignment Number A120079


We have completed an implementation review of the management actions taken in
response to the three recommendations contained in the subject audit report. We found
that the Public Buildings Service’s (PBS) revised corrective action plan, dated July 15,
2009 (see Appendix B) addressed the audit recommendations. However, during our
review we identified a related issue we would like to bring to your attention.

Other Issue

One PBS action addressing Recommendation 3 was to “Develop guidance for regional
PBS acquisition program review, which requires verification of 3490.1A clause in
contracts that contain or create SBU building information.” Essentially, this action would
require reviews to ensure that contracts include a clause compelling contractors to
secure sensitive information related to buildings.

While the guidance has been developed and issued, as part of our testing, we
requested the results of the program reviews to verify that applicable contracts did, in
fact, contain the required clauses. This is especially important since our initial review
disclosed that PBS contracting officers were inconsistently implementing the detailed
PBS policy issued to safeguard sensitive building information. PBS was unable to
provide these results and a PBS official indicated the reviews were not being performed.




                                            1
Scope and Methodology

To accomplish this implementation review we: (1) examined the documentation
submitted by PBS which supported accomplishment of the action plan steps; (2)
performed limited testing of the implementation of the guidance contained in these
supporting documents; and (3) met and corresponded with PBS personnel.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

      Susan Hall             Audit Manager       susan.hall@gsaig.gov     (202)501-2073
      Felicia Silver         Auditor-In-Charge   felicia.silver@gsaig.gov (202)501-1360

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this review.




                                           2
Appendix A – Recommendations from Report Number
A070216/P/R/R08005
                                                     Assignment Number A120079


We recommend that the PBS Commissioner:

  1. Incorporate PBS 3490.1 requirements directly into the boilerplate Solicitation for
     Offers and contracts for A/Es, construction, and lease construction contracts.

        a. Require contractors to include PBS 3490.1 requirements in their
           subcontracts.

        b. Develop a course of action to be taken when contractors do not fulfill their
           contractual obligations regarding the protection of SBU information.

  2. Ensure PBS officials are provided training on the PBS 3490.1. The training
     should include encryption software applications available to PBS project
     personnel.

  3. Implement a system of controls to ensure that PBS 3490.1 requirements are
     being followed by PBS project teams.




                                         A-1
Appendix B – Management’s Corrective Action Plan
                                                          Assignment Number A120079

PUBLIC BUILDINGS SERVICE REVISED ACTION PLAN

CONTROLS OVER SECURITY OF BUILDING INFORMATION



Designated Responding Official: Diane L. Herdt, PBS CIO                Revised as of 7-15-09

Contact Person: Wayne Smedley                                          Completion Date

Telephone Number: 202-501-9135                                         September 30, 2009

Date: 07/15/2009




                                          B-1
Appendix B – Management’s Corrective Action Plan (cont.)
                                    Assignment Number A120079




                         B-2
Appendix C – Report Distribution
                                                        Assignment Number A120079

Acting Commissioner, Public Buildings Service (P)

Regional Administrator, National Capital Region (NCR)

Regional Administrator, Southeast Sunbelt Region (4A)

Regional Administrator, Greater Southwest Region (7A)

Acting Regional Inspector General for Auditing (JA-4, JA-7)

Special Agent in Charge (JI-W, JI-4, JI-7)

Office of Inspector General (J)

Assistant Inspector General for Auditing (JA, JAO)

Assistant Inspector General for Investigations (JI)

Office of the Chief Financial Officer (B)

Division Director, GAO/IG Audit Response Division (H1C)




                                            C-1
